                          UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

              Ofﬁce of Inspector General




            Report of Inspection



        Review of

Voice of America's Deewa 

    Radio Journalistic

         Controls

     Report Number ISP-IB-09-67, July 2009




                             IMPORTANT NOTICE
This report is intended solely for the ofﬁcial use of the Department of State or the 

Broadcasting Board of Governors, or any agency or organization receiving a copy 

directly from the Ofﬁce of Inspector General. No secondary distribution may be made,

in whole or in part, outside the Department of State or the Broadcasting Board of 

Governors, by them or by other agencies or organizations, without prior authorization 

by the Inspector General. Public availability of the document will be determined by 

the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of 

this report may result in criminal, civil, or administrative penalties.





                           UNCLASSIFIED

                             UNCLASSIFIED





   PURPOSE, SCOPE AND METHODOLOGY OF THE 

                 INSPECTION

     This inspection was conducted in accordance with the Quality Standards for
Inspections, as issued by the Council of the Inspectors General on Integrity and
Efﬁciency, and the Inspector’s Handbook, as issued by the Ofﬁce of Inspector
General (OIG) for the U.S. Department of State (Department) and the Broadcasting
Board of Governors (BBG).

   PURPOSE

    The Ofﬁce of Inspections provides the Secretary of State, the Chairman of the
BBG, and Congress with systematic and independent evaluations of the operations
of the Department and the BBG. Inspections cover three broad areas, consistent
with Section 209 of the Foreign Service Act of 1980:

   • 	 Policy Implementation: whether policy goals and objectives are being ef-
       fectively achieved; whether U.S. interests are being accurately and effectively
       represented; and whether all elements of an ofﬁce or mission are being
       adequately coordinated.

   • 	 Resource Management: whether resources are being used and managed with
       maximum efﬁciency, effectiveness, and economy and whether ﬁnancial trans-
       actions and accounts are properly conducted, maintained, and reported.

   • 	 Management Controls: whether the administration of activities and opera-
       tions meets the requirements of applicable laws and regulations; whether
       internal management controls have been instituted to ensure quality of
       performance and reduce the likelihood of mismanagement; whether instance
       of fraud, waste, or abuse exist; and whether adequate steps for detection,
       correction, and prevention have been taken.

METHODOLOGY

     In conducting this inspection, the inspectors: reviewed pertinent records; as ap-
propriate, circulated, reviewed, and compiled the results of survey instruments; con-
ducted on-site interviews; and reviewed the substance of the report and its ﬁndings
and recommendations with ofﬁces, individuals, organizations, and activities affected
by this review.




                              UNCLASSIFIED

                                           UNCLASSIFIED



                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Acting Inspector General




                                             UNCLASSIFIED
                                                UNCLASSIFIED





                                TABLE OF CONTENTS



KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

MEDIA ENVIRONMENT AND LISTENERSHIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

CREDIBILITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

JOURNALISTIC CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

FUTURE GROWTH . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

   Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

APPENDIX A - VOA CHARTER (PUBLIC LAW 94-350) . . . . . . . . . . . . . . . . . . . . . . . . . . 19

APPENDIX B – VOA JOURNALISTIC CODE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21





                                                 UNCLASSIFIED

                                       UNCLASSIFIED





                             KEY JUDGMENTS

    BBG created Deewa Radio at Voice of America (VOA) in 2006. Its target audi-
ence is the Pashtun population on the Pakistan side of that country’s troubled border
region with Afghanistan. Deewa Radio provides the United States with a vital com-
munications link to a region of major signiﬁcance to U.S. foreign policy and national
security.

    An effective system of review is in place in Deewa Radio and the South Asia
division of VOA to ensure that the broadcasted material meets VOA standards for
accuracy and balance.

    If Deewa Radio continues to grow, VOA will have to take into account its staff
size and training requirements to maintain continued effectiveness and quality.

    The review took place in Washington, DC, between May 28 and June 8, 2009.
Mark Jacobs and Martha K. Goode conducted the review. The OIG team obtained
information from BBG, VOA, and the Department through interviews and docu-
ment reviews.




     OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009   1 .


                                       UNCLASSIFIED
                                  UNCLASSIFIED





2 .   OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009


                                  UNCLASSIFIED
                                        UNCLASSIFIED





                                  BACKGROUND

    BBG launched Deewa Radio at VOA in October 2006. Its target audience is the
approximately 30 million Pashtuns living on the Pakistani side of the troubled border
region between Afghanistan and Pakistan. The Pashto language spoken in Afghani-
stan is different from that in Pakistan. VOA’s Pashto service is directed to greater
Afghanistan, while Deewa Radio is directed primarily to the Pakistan/Afghanistan
border region and broadcasts in the Pashto dialect spoken there.

     Deewa Radio is transmitted by short-wave signal. It is also available on the In-
ternet (http://www.voanews.com/deewa/). In addition, three BBG-operated FM
stations in Afghanistan near the Pakistan border carry the signal around the clock.
At the time of the review, no medium-wave (AM) signal was available, but an AM
transmitter was being readied in Afghanistan whose signal was expected to extend
signiﬁcantly into the targeted region inside Pakistan. The transmitters are located in
Afghanistan rather than in Pakistan because the Pakistan Media Law is very restric-
tive in this matter.

    Deewa Radio began by broadcasting 6 hours daily, from 8 a.m. to 2 p.m. East-
ern Time, in alternating hour-long blocks of news and current events shows as well
as call-in shows. The news and current events shows start with a 10-minute news
bulletin. The call-in shows start with a 5-minute news bulletin. During the course of
the review, Deewa Radio added an additional 3 hours of material in the same format
timed for broadcast during morning hours in the border region.

    In 2009, allegations surfaced in the media that members of the Taliban in Paki-
stan had exploited Deewa Radio for propagandistic purposes. These allegations were
that Deewa Radio quoted Taliban leaders and their spokesmen excessively; provided
a platform for disinformation regarding Taliban military movements; and broadcast a
threat by a Taliban leader to attack the White House.

    In accordance with the U.S. International Broadcasting Act of 1994,1 Section
304 (a) (3) (B), OIG is prohibited from evaluating the content of BBG broadcasting
entities. The section, titled “Respect for Journalistic Integrity of Broadcasters,” states



Pub. L. No. 103-236
1




      OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009   3 .


                                        UNCLASSIFIED
                                      UNCLASSIFIED



      that “The Inspector General shall respect the journalistic integrity of the broadcast-
      ers covered by this title and may not evaluate the philosophical or political perspec-
      tives reﬂected in the content of broadcasts.” For this reason, the OIG team evalu-
      ated only the processes and procedures in place at Deewa Radio and VOA that are
      used to ensure the accuracy and balance of Deewa Radio’s broadcasts.




4 .       OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009


                                      UNCLASSIFIED
                                        UNCLASSIFIED





                     MEDIA ENVIRONMENT AND
                         LISTENERSHIP

     The border region that Deewa Radio targets is a hostile media environment. It
is underserved by traditional media because of its geographical isolation and Pashto
dialect; in other parts of the country Urdu and English are commonly spoken. Un-
like the rest of Pakistan, where television predominates as the source of news and
information, radio is the most important medium in the border region.

    The Taliban operate a large number of unlicensed FM transmitters throughout
the region. While they have limited range, these “rogue” stations regularly broadcast
propaganda, including frequent claims for terrorist actions carried out by the Taliban.

    In that challenging environment, Deewa Radio’s goal is to provide accurate and
balanced news and information in the Pashto dialect spoken by its listeners.

    Conducting research in what is essentially a war zone presents a major challenge,
and relatively little has been done since Deewa Radio’s inception in 2006. In 2008,
BBG commissioned a research study which suggested that Deewa Radio is develop-
ing a signiﬁcant listenership. 2 Research sponsored by the U.S. Agency for Interna-
tional Development and by the Department’s Bureau of Intelligence and Research
buttressed that perception.3 At the time of the review, BBG was ﬁnalizing plans to
commission additional research.




InterMedia, VOA Pashto to Pakistan: Listener Feedback on VOA’s Deewa Pashto Service.
2

U.S. Agency for International Development, Media Perceptions in the Federally Administered
3

Tribal Areas, Ofﬁce of Transition Initiatives.


      OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009   5 .


                                        UNCLASSIFIED
                                  UNCLASSIFIED





6 .   OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009


                                  UNCLASSIFIED
                                       UNCLASSIFIED





                                   CREDIBILITY

    BBG and VOA interlocutors at every level expressed the conviction that to be
effective, Deewa Radio must earn and sustain credibility with its intended audience.
In their view, credibility comes from strict adherence to VOA’s reporting standards
as spelled out in the VOA charter, established in Public Law 94-350. A copy of
the charter appears in Appendix A. Its standards are further spelled out in VOA’s
journalistic code (Appendix B). Those standards stress accuracy and balance. In the
view of BBG and VOA personnel, the role of Deewa Radio is to provide Pakistan’s
Pashto speakers with reliable news and information in the VOA tradition; its role is
not to provide a propaganda counterweight to Taliban efforts.

    VOA and BBG interlocutors emphasized a second factor critical to the success
of Deewa Radio. In addition to being credible, Deewa Radio must also be locally
relevant. While this is generally true around the world, it is of particular importance
in a region whose population is suffering the multiple stresses that the Pashtuns
have been experiencing. War, social upheaval, and economic uncertainty are the daily
facts of life in the region. To gain an audience, Deewa Radio must cover those issues
straightforwardly and consistently. Pashtuns must believe that, by tuning in VOA,
they will receive reliable and objective news and information about the region.

        For both these reasons—credibility and relevance—VOA personnel at every
level expressed the belief that Deewa Radio must report on the Taliban, including
the Taliban’s sometimes outrageous and offensive claims. As events dictate, they
must selectively interview Taliban leaders and spokesmen. Ignoring them would
be like The Washington Post’s failing to report on a natural disaster in downtown
Washington, D.C. The issue, in the view of VOA personnel, is not whether to cover
the Taliban but how to do so. In that regard, the question of journalistic controls is
paramount.




     OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009   7 .


                                       UNCLASSIFIED
                                  UNCLASSIFIED





8 .   OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009


                                  UNCLASSIFIED
                                       UNCLASSIFIED





                    JOURNALISTIC CONTROLS

     The OIG team conducted interviews and reviewed the policies, procedures, and
safeguards in place to ensure Deewa Radio’s compliance with VOA standards of
journalism, particularly its mandate to provide balanced and accurate reporting. The
OIG team found an effective system of checks and balances in operation. The pro-
cess by which material is vetted begins with a review by stringer coordinators based
in the provinces of Pakistan. Following that initial review, material passes through
a stringer coordinator based in Washington, a Deewa Radio news editor, and the
Deewa Radio service chief. Additional review is available as needed from the director
of the South Asia division, the associate director of VOA language programming,
the VOA executive editor, and the VOA Director. The criteria employed throughout
the review process are VOA’s standards as articulated in the charter and the journalis-
tic code.

    In addition to this system of daily review, Deewa Radio, the International Broad-
casting Bureau and external experts conduct an annual review of each of VOA’s lan-
guage services, including Deewa Radio. As a result of this process, VOA develops an
action plan for improvement with deﬁned responsibilities and milestones. A Deewa
Radio program review was conducted in September, 2008; the next is scheduled for
the fall of 2009.

    Interviewees at all levels noted that, in addition to the review processes described
above, Deewa Radio follows VOA practice by providing signiﬁcant explanatory con-
text and perspective when citing or quoting news sources.

    The BBG and VOA staff who were interviewed provided a description of the
reactions of some Deewa Radio listeners to Taliban interviews. Although audience
research is difﬁcult to conduct in the Pakistani provinces at issue, informal feedback
mechanisms such as e-mails and telephone calls sometimes provide anecdotal evi-
dence of the station’s impact. In some instances listeners ridiculed the Taliban for
making outrageous claims. In other instances, Taliban spokesmen made the group
look bad to Deewa Radio listeners by claiming credit for terrorist actions in which
Pakistani civilians died.




     OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009   9 .


                                       UNCLASSIFIED
                                       UNCLASSIFIED



           The OIG team believes that the system in place in Deewa Radio is effective, as is
       the supervision of Deewa Radio broadcast material and personnel.

           Among those interviewed at the working level, the OIG team found that they
       understood VOA’s mission and the importance of producing material that meets
       VOA quality standards. Interviewees articulated their understanding of those stan-
       dards with speciﬁc reference to the subject matter on which they report.




10 .       OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009


                                       UNCLASSIFIED
                                       UNCLASSIFIED





                                FUTURE GROWTH

     Like other services that have developed quickly, Deewa Radio will face a number
of challenges if it continues to grow. At the time of the review, the Washington-
based staff included three full-time employees and approximately twelve persons
working on a contract or purchase-order basis under the supervision of a VOA lan-
guage service chief and division director. (Twenty stringers provided material from
Pakistan.) The full-time employees were engaged in a broad range of activities rang-
ing from translation of VOA central news desk stories to hosting on-air programs.
Whether they can sustain the intense pace and volume of work over a long period of
time appeared to be an open question. Staff burn-out could present a problem for
VOA. It could, over time, affect Deewa Radio’s ability to sustain high-quality pro-
gramming.



      TRAINING
    The OIG team’s interviews suggested a high degree of commitment to VOA
standards but an uneven pattern of training. Staff backgrounds in journalism varied,
as did the kinds of training people had received since joining VOA. The situation
was further complicated by strictures on the training of contract personnel and pur-
chase order vendors. There was no existing blanket exemption to the prohibition on
training individuals in those categories, although there are guidelines governing the
training of contractors and obtaining approval for such training as appropriate, e.g.,
orientation training. The service chief attempted to compensate for these shortcom-
ings by offering on-the-job orientation and training. The OIG team believes that a
more systematic approach to training and development would contribute to ensuring
that Deewa Radio continued to meet VOA standards.

        The OIG team interviews conﬁrmed an understanding of VOA’s principles
and standards. Deewa Radio remains a new service, its corporate identity still in the
process of development. The OIG team believes that VOA can speed and solidify
that process by providing a session or a workshop or some other mechanism focused
on the service’s mission. The purpose of such an exercise would be a kind of team
building anchoring the work of Deewa Radio in the VOA tradition.




     OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009   11 .


                                       UNCLASSIFIED
                                       UNCLASSIFIED




               Recommendation 1: Voice of America should develop and implement a
          comprehensive training plan for Deewa Radio that requires consistent journal-
          istic orientation for people who are not full-time employees. (Action: VOA)


                In comments to a discussion draft of this report, VOA reported that it is de-
       veloping a 3-hour class on understanding and applying the VOA charter and journal-
       istic code to daily assignments. The objectives of this class include the opportunity
       to discuss various journalistic principles including: sourcing, accuracy and balance,
       fairness, independence, context, and comprehensiveness. According to VOA, stu-
       dents will be urged to participate in group discussions about news coverage, steps
       for accurately reporting stories, and guidelines to guarantee balance. The course will
       be taught by experienced VOA journalists, and will be made available to the entire
       Deewa Radio staff, both employees and contractors.

               The OIG team determined that Deewa Radio is adhering to VOA’s broad-
       casting standards. The OIG team believes that the system in place to ensure the bal-
       ance and accuracy of Deewa Radio’s reporting is effective.




12 .       OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009


                                       UNCLASSIFIED
                                       UNCLASSIFIED





                           RECOMMENDATION

Recommendation 1: Voice of America should develop and implement a compre-
  hensive training plan for Deewa Radio that requires consistent journalistic orien-
  tation for people who are not full-time employees. (Action: VOA)




     OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009   13 .


                                       UNCLASSIFIED
                                   UNCLASSIFIED





14 .   OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009


                                   UNCLASSIFIED
                                       UNCLASSIFIED





                       PRINCIPAL OFFICIALS


                                                       Name                             Arrival Date


BBG Executive Director                                 Jeffrey Trimble                           04/08
VOA Director                                           Danforth Austin                           10/06




     OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009   15 .


                                       UNCLASSIFIED
                                   UNCLASSIFIED





16 .   OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009


                                   UNCLASSIFIED
                                   UNCLASSIFIED





                             ABBREVIATIONS

BBG                      Broadcasting Board of Governors
Department               Department of State
OIG                      Ofﬁce of Inspector General
VOA                      Voice of America




 OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009   17 .


                                   UNCLASSIFIED
                                   UNCLASSIFIED





18 .   OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009


                                   UNCLASSIFIED
                                       UNCLASSIFIED





              APPENDIX A - VOA CHARTER
                 (PUBLIC LAW 94-350)

     The long-range interests of the United States are served by communicating
directly with the peoples of the world by radio. To be effective, the Voice of America
must win the attention and respect of listeners. These principles will therefore gov-
ern Voice of America (VOA) broadcasts.

  1. VOA will serve as a consistently reliable and authoritative source of news.
VOA news will be accurate, objective, and comprehensive.

     2. VOA will represent America, not any single segment of American society, and
will therefore present a balanced and comprehensive projection of signiﬁcant Ameri-
can thought and institutions.

     3. VOA will present the policies of the United States clearly and effectively, and
will also present responsible discussions and opinion on these policies.

    (Public Law 94-350)




     OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009   19 .


                                       UNCLASSIFIED
                                   UNCLASSIFIED





20 .   OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009


                                   UNCLASSIFIED
                                   UNCLASSIFIED





APPENDIX B – VOA JOURNALISTIC CODE

Preamble

Since 1942, the Voice of America has built a global reputation as a consistently
reliable source of news and information. Accuracy, balance, comprehensiveness,
and objectivity are attributes audiences around the world have come to expect
of VOA broadcasters and their product. These standards are legally mandated in
the VOA Charter (Public Laws 94-350 and 103-415). Because of them, VOA has
become an inspiration and information lifeline to nations and peoples around the
world.

Summary

Adhering to the principles outlined in the Charter, VOA reporters and broadcast-
ers must strive for accuracy and objectivity in all their work. They do not speak
for the U.S. Government. They accept no treatment or assistance from U.S. Gov-
ernment ofﬁcials or agencies that is more favorable or less favorable than that
granted to staff of private-sector news agencies. Furthermore, VOA profession-
als, careful to preserve the integrity of their organization, strive for excellence
and avoid imbalance or bias in their broadcasts.

The Voice of America pursues its mission today in a world conﬂict-ridden and
unstable in the post Cold War era. Broadcasting accurate, balanced and complete
information to the people of the world, and particularly to those who are denied
access to accurate news, serves the national interest and is a powerful source of
inspiration and hope for all those who believe in freedom and democracy.

The Code

All staff who report, manage, edit, and prepare programming at VOA in both
central and language services therefore subscribe to these principles:

Sourcing

VOA news and programming must be rigorously sourced and veriﬁed. VOA nor-
mally requires a minimum of two independent (non-VOA) sources before any
newswriter, background writer, political affairs writer, correspondent, or stringer
may broadcast information as fact in any language.

 OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009   21 .


                                   UNCLASSIFIED
                                       UNCLASSIFIED



           The only exceptions to the double-source requirement are facts directly con-
       ﬁrmed by a VOA journalist, or signiﬁcant news drawn from an ofﬁcial announce-
       ment of a nation or an organization. In those rare instances when a secondary source
       offers exclusive signiﬁcant news (e.g., a veriﬁed news agency exclusive interview with
       a chief of state or prominent newsmaker), this story is attributed to the originating
       agency by name.

          Accuracy and Balance

           Accuracy and balance are paramount, and together, they are VOA’s highest
       priority. Accuracy always comes before speed in VOA central service and language
       programming. VOA has a legal obligation to present a comprehensive description of
       events, reporting an issue in a reliable and unbiased way. Though funded by the U.S.
       Government, VOA airs all relevant facts and opinions on important news events and
       issues. VOA corrects errors or omissions in its own broadcasts at the earliest oppor-
       tunity.

            VOA is alert to, and rejects, efforts by special interest groups, foreign or do-
       mestic, to use its broadcasts as a platform for their own views. This applies to all
       programs and program segments, including opinion or press roundups, programs
       discussing letters, listener comments, or call-in shows. In the case of call-ins, views
       of a single party must be challenged by the interviewer if alternative opinions are un-
       represented. In interviews, points of possible discussion are submitted in advance if
       requested by an interviewee of stature (e.g., a chief of state). However, VOA journal-
       ists always retain the right and responsibility to pursue newsworthy angles, including
       entirely fresh lines of questioning, during such interviews.

           Whenever VOA reports a charge or accusation made by an individual or a group
       against another, or presents one side of a controversial issue, a response and/or bal-
       ancing information will be included in the ﬁrst use of a news item or feature contain-
       ing that material. If the balancing information cannot be obtained by the program
       deadline, or the subject of the charge declines to comment, that will be made clear in
       VOA’s account, and the balancing material will be broadcast as soon as it is available.

          Fairness

           VOA has, in the words of the Founding Fathers, “a decent respect for the
       opinions of mankind.” VOA is required to present a full and fair account of events.
       VOA broadcasters evaluate information solely on its merits, rejecting incitements to
       violence, sensationalism, personal value judgments, or misleading emphases. Attribu-
       tions are speciﬁc and complete.



22 .       OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009


                                       UNCLASSIFIED
                                       UNCLASSIFIED



    VOA journalists (including correspondents, news and language stringers, political
affairs writers, and program hosts) avoid at all times the use of unattributed pejora-
tive terms or labels to describe persons or organizations, except when the individuals
and groups use those labels to describe themselves or their activities.

     In news, features, and current affairs programming, VOA broadcasters will me-
ticulously avoid fabricating, distorting, or dramatizing an event. If sound at an event
illustrates the reporter’s account of that event and is edited for time, the remaining
sound effect reﬂects what occurred in an accurate and balanced way. If there is a risk
of misleading the audience, no use will be made of sound effects not actually record-
ed at the event being described.

    Context and Comprehensiveness

    VOA presents a comprehensive account of America and the world, and puts
events in context. That means constant vigilance to reﬂect America’s, and the world’s
political, geographical, cultural, ethnic, religious, and social diversity. VOA program-
ming represents the broadcast team’s best effort to seek out and present a compre-
hensive account of the event or trend being reported.

   VOA broadcasters will avoid using announcing or interviewing techniques that
add political coloration or bias to their reportage or current affairs programming.
Music will not be used to make editorial statements. VOA journalists and all those
preparing news and feature programming avoid any action or statement that might
convey the appearance of partisanship.

    Procedures

    When performing ofﬁcial duties, VOA broadcasters leave their personal political
views behind. The accuracy, quality, and credibility of the Voice of America are its
most important assets, and they rest on listeners’ perception of VOA as an objec-
tive source of world, regional, and U.S. news and information. To that end, all VOA
journalists will:

    1. Always travel on regular, non-diplomatic passports, and rely no more and no
less than private-sector correspondents on U.S. missions abroad for support, as set
out in the guidelines for VOA correspondents.

    2. Assist managers whose duty is to ensure that no VOA employee, contract em-
ployee, or stringer works for any other U.S. Government agency, any ofﬁcial media
of another state, or any international organization, without speciﬁc VOA authoriza-
tion.


     OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009   23 .


                                       UNCLASSIFIED
                                       UNCLASSIFIED



           3. Adhere strictly to copyright laws and agency regulations and always credit the
       source when quoting, paraphrasing, or excerpting from other broadcasting organiza-
       tions, books, periodicals or any print media.

           In addition to these journalistic standards and principles, VOA employees recog-
       nize that their conduct both on and off the job can reﬂect on the work of the Voice
       of America community. They adhere to the highest standards of journalistic profes-
       sionalism and integrity. They work to foster teamwork, goodwill, and civil discourse
       in the workplace and with their colleagues everywhere in the world, all to enhance
       the credibility and effectiveness of the Voice of America.




24 .       OIG Report No. ISP-IB-09-67, Review of Voice of America's Deewa Radio Journalistic Controls - July 2009


                                       UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
